                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

Case Number: 113100054                                                         Page 1 of1



               We received allegations from three individuals who were contractor employees
        working at NSF stations in Antarctica. We determined that all of the specific issues
        raised were programmatic, and we referred them to NSF's Office of Polar Programs.
        There were vague allegations of"criminal" acts, but they were not substantiated. This
        case is closed.




NSF OIG Form 2 (njo2)
